February 25, 2011

DAVID C. FIELDS
ACTING VICE PRESIDENT, OPERATIONS, CAPITAL METRO AREA

SUBJECT: Audit Report – Facility Optimization: Capital Metro Area
        (Report Number DA-AR-11-004)

This report presents the results of our audit of facility optimization in the Capital Metro
Area (Project Number 10YG029DA000). The U.S. Postal Service Office of Inspector
General (OIG) initiated this audit from a random sample of districts nationwide. For the
Capital Metro Area, our objective was to identify opportunities to optimize existing real
estate in the Greensboro District. See Appendix A for additional information about this
audit.

The Capital Metro Area uses 2,560 facilities with over 4 million interior square feet (SF)
in the Greensboro District. While the area employs these facilities, it has experienced a
significant reduction in workload in recent years. From fiscal years (FYs) 2005 to 2010,
mail volume in the Capital Metro Area has dropped 28 percent. Likewise, mail volume in
the Greensboro District has shown a 19 percent decrease. This reduction in workload
provides an opportunity to reevaluate space needs and identify potential excess space.

Conclusion

In the Capital Metro Area, the Greensboro District has over 1.17 million more SF than
their workload suggests they need. The U.S. Postal Service could reduce interior space
through:

      Disposal – selling property.
      Outleasing – leasing owned property.
      Subleasing/Reassignment – reassigning leased property.
      Development – investing in real estate projects.

With a major effort underway, the Postal Service has begun reducing existing space.
Specifically, the Capital Metro Area plans to dispose of 466,975 SF of this excess space
through approved optimization projects. Although it has made progress, the Postal
Service can do more to dispose of excess interior space more quickly.

The opportunity to reduce excess interior space in the reviewed district exists because:
Facility Optimization: Capital Metro Area                                                      DA-AR-11-004



   Postal Service policy requires installation heads to report excess space, but does
    not provide the necessary guidance to effectively accomplish this task.

   The excess space reporting system does not track metrics such as dates or space
    conditions to allow for prioritizing disposal actions.

We estimate that if the Capital Metro Area eliminates1 the excess space we identified in
the Greensboro District, there is a potential opportunity to realize $36,312,795 over
typical and remaining lease terms or $3,631,280 annually. We consider this amount to
be funds put to better use2. See Appendix B for our detailed analysis of this topic and
Appendix C for our monetary impact calculation.

Also, our audit noted that the Postal Service could more aggressively seek federal
entities needing interior space. In the district reviewed, our analysis shows that excess
space identified at Postal Service facilities may be able to accommodate 65 percent of
current federal agencies space consumption in the district reviewed (see Appendix D).
This opportunity exists because the Postal Service has not capitalized on the priority
status it has for filling federal agencies’ space needs, which would allow it to reduce its
facility infrastructure size and generating additional revenue.

We recommend the vice president, Operations, Capital Metro Area; district managers;
area managers; and the Eastern3 Facility Service Office manager work in coordination
to:

1. Clarify procedures for reporting excess space.

2. Initiate disposal actions for excess space identified.

3. Pursue rental opportunities with federal agencies as an option to optimize excess
   property.
          




1
  Disposal actions available include sale, termination of lease, consolidation, and/or subleasing. At a minimum, the
Postal Service can out-lease or initiate a sublet action for owned or leased property, respectively.
2
  Funds that could be used more efficiently by implementing recommended actions. This amount does not include
excess square footage that is part of an approved node study.
3
  Capital Metro Area is serviced by the Eastern Area Facility Service Office.


                                                           2
Facility Optimization: Capital Metro Area                               DA-AR-11-004



Management’s Comments

Management agreed with the finding that excess space exists in a number of facilities,
agreed to the recommendations made, and stated that corrective action to address the
first two recommendations will be in place by Quarter 2, FY 2011. Corrective action to
address the third recommendation will be in place by Quarter 3, FY 2011. While
management agreed to develop a more accurate process to better manage excess
space, they did not agree with the amount of excess space or the potential monetary
impact reported. Specifically, they disagreed with the methodology used to calculate
existing excess space in addition to the data and cost factors used to value the excess
space and calculate monetary impact.

In reference to the level of excess space reported, management conveyed that our
methodology does not include allowances for:

    1. Unusable space such as basements and corridors.

    2. Unique operational functions not included in standard designs and inefficiencies
       in the current building layouts.
         
    3. Historic property.
         
    4. Parking and dock space requirements.
         
    5. Large inflexible retail lobbies.
         
In reference to the cost factors used in our calculations, management asserted that
build-out costs are much higher than we considered. In addition, management believes
the accurate way to calculate monetary impact is by multiplying useable excess space
by sublease value less conversion cost. This calculated outcome should then be
adjusted for maintenance and utility savings.

Finally, management expressed the challenges facing the Postal Service when
disposing of property in poor market conditions and actions they have already taken to
reduce excess property. In particular, management has focused its attention on
properties that have more than 10,000 interior SF. These properties represent 16
percent of all buildings and 76 percent of total interior square footage. This allows the
Postal Service to capture the largest opportunities for excess space that is usable.See
Appendix E for management’s comments, in their entirety.




                                             3
Facility Optimization: Capital Metro Area                               DA-AR-11-004



Evaluation of Management’s Comments

Considering the rapid decline of workload and the dynamic nature of excess space, the
OIG considers management’s comments responsive to the recommendations.
Management’s corrective actions over time should resolve the issues identified in the
report. With respect to the methodology used to calculate excess space, we did not
determine whether the excess space identified was usable, in part because Postal
Service systems do not identify usable areas. We agree that realty management
policies and systems need to be updated to define usable areas. According to
commercial realty standards,4 usable areas are generally measured from “paint to paint”
inside the permanent walls to the middle of partitions. No deductions are made for
columns and projections necessary to the building. Our calculations reflect these
standards.

As it relates to the usability of basements, we note that Postal Service Headquarters
and many federal agency buildings use basement space. Commercial realty standards
include basement areas in useable and leasable computations. We did not include
allowances for existing functions, building layout inefficiencies, and inflexible spaces
because the Postal Service’s current space standards did not specify these allowances.
Our audit focused on interior excess space, thus, enclosed parking and dock spaces
were outside the scope of the audit.

Management also conveyed that we did not consider the historic nature of buildings and
the challenges or costs associated with making changes to these buildings. While we
agree that there are properties of the Postal Service that are historic in nature, we do
not feel this has a large impact in the presentation of our results. The number of eligible
historic buildings listed in the Postal Service’s systems account for less than 1 percent
of their properties. Also, while the Postal Service is required to consult with historical
organizations, they are not bound by these consultations or decisions.

The standard building design matrix served as the basis for determining earned space.
During the on-site visits, we inquired whether there were unique operations conducted
at the facility and whether they were allotted the necessary space for those functions.
Conservatively, we did not consider performance measures such as street efficiency or
alternate access sales channels which would decrease the earned facility size and
increase excess space. We acknowledge that entrances, security, and other building
considerations are factors to consider when optimizing excess space for a
site-specific solution. In these cases, a comprehensive solution for excess space at
sites within an acceptable radius that allows the Postal Service to vacate a property in
its entirety may mitigate these challenges.

The Postal Service does not have a methodology of determining “build-out” costs at a
national, area, or district level. As such, to determine build-out cost we used the
average build-out costs for the district as presented in five district node studies with
varying optimization actions. We note that build-out costs are negotiable and lessees, at
4
    www.boma.org.


                                             4
Facility Optimization: Capital Metro Area                                  DA-AR-11-004



times, absorb the cost of conversion. We built in several different tolerances relating to
the amount of excess space at sites reviewed and considered the marketability of
properties within the districts. Further, we acknowledged multiple actions, such as lease
terminations, disposals, and space/lease reductions within the approved node studies
and reflected them in our monetary impact calculations. We recognized realty market
conditions and discounted our excess space calculations by the national commercial
vacancy rate. Therefore, we consider our presentation of the level of excess space and
value to be a reasonable estimate of the opportunity loss associated with unproductive
assets.

Finally, we recognize the efforts made to optimize Postal Service real estate and
management’s attention to properties greater than 10,000 SF. We believe that once
management modernizes its realty management systems to have greater visibility of
excess space, it will be able to better prioritize disposal actions associated with its full
building inventory.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.
.
We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel A. Castillo, director,
Engineering and Facilities, or me at 703-248-2100.

      E-Signed by Mark Duda
 VERIFY authenticity with ApproveIt




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Megan J.Brennan.
    Tom A.Samra
    Thomas J.Russell
    Russell D. Gardner
    Jeffrey G. Bullins
    Randall N. Anderson
    Kathryn.M McCarty
    Corporate Audit and Response Management




                                               5
Facility Optimization: Capital Metro Area                                 DA-AR-11-004



                               APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Capital Metro Area leases or owns 2,560 facilities with over 4 million interior SF to
move mail in the Greensboro District. The consolidation or closure of facilities is a
widely discussed topic due to declining mail volume and the resulting financial condition
of the Postal Service. In response, Postal Service Facilities and Retail Management
organizations have implemented initiatives to optimize space — namely, initiation of the
Facility Optimization Program and the Station and Branch Optimization Consolidation
(SBOC) program.

In April 2008, the vice president of Facilities initiated the Facility Optimization Program
to balance the portfolio of existing delivery facilities with the Postal Service’s current and
projected space needs. The program’s objectives are to generate revenue and reduce
rent obligations and operational costs. The process entails identifying, investigating,
analyzing, and approving space before executing the approved optimization action. The
Capital Metro Area has a total of 35 approved optimization studies, including five in the
Greensboro District.

Established in May 2009, the SBOC program provides tools and strategies to evaluate
the effectiveness of Postal Service retail placement in support of the Transformation
Plan’s goals of improved service and increased revenue. Accordingly, Furnitureland
Station, Ardmore Station, State University Station, Crabtree Valley Station, and Plaza
Station are under consideration for closure in the Greensboro District.

In October 2010, the Postal Service consolidated optimization efforts to manage
excess space. Currently, the Postal Service has a program in place to optimize carrier
delivery facilities through the use of node studies.5 However, the Postal Service will
now include mail processing plants, retail facilities, small delivery units, administrative
space, and carrier delivery facilities in one overall initiative. This integrated effort
between Facilities Headquarters and the field offices will use computer modeling and
equipment analysis along with local analysis and metro planning to form a
headquarters and district/area partnership.

To supplement and expand on existing Postal Service initiatives, the OIG developed a
Real Estate Risk Model (RERM) to identify and prioritize emerging facility risk. The risk
model measures facility performance results by district for the following nine metrics:




5
    Studies of consolidation for sites in a geographic radius.


                                                                 6
Facility Optimization: Capital Metro Area                                                      DA-AR-11-004




                                    Table 1 – Risk Metrics
                                       RERM METRICS
                                                   Excess Postal Service Identified
    Ratio of Mail Volume to Interior SF
                                                   Interior Space
    Ratio Revenue to Interior SF                   Excess Land
    Ratio of Total Expense to Interior SF          Facility Condition
    Ratio of Employees to Interior SF              Density, Geographic Location
    Ratio of Retail Revenue to Total Expense

We randomly selected the Greensboro District as part of the national review of excess
interior space.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to identify opportunities for the Postal Service’s Capital Metro Area to
optimize existing real estate. We visited 30 of 515 facilities in the Greensboro District,
representing 52 percent of OIG-calculated excess space when actual interior space is
compared to space standards. The scope of the audit included main post offices, carrier
annexes, stations, branches, and mail processing facilities. To accomplish our objective
we visited selected facilities, conducted interviews, and examined other relevant
materials.

To calculate the earned6 facility size, we compared the workload data from Postal Service
databases7 to the number of carrier routes, the number of rented post office box sections,
and peak window use. We based the earned facility size on Postal Service criteria8 for
planning new space projects, which differs from existing Postal Service initiatives9
because it focuses on the total facility size, not specific retail or delivery operations. We
calculated excess space by taking the difference between earned facility size and actual
interior square footage reported in the electronic Facilities Management System (eFMS).
For the plants, the industrial engineer, working with local in-plant support, provided us the
excess space data which we reviewed for reasonableness.

We conducted this performance audit from July 2010 to February 2011 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for

6
  We used Postal Service criteria established in March of 2007 outlined in a letter issued by the senior vice president
of Operations. In support of this newly established criteria, the headquarters Facility Group, Planning and Approval,
designed matrices to assist with the space requirements of planned facilities.
7
  WebBATS Monthly Summary Data for issued P.O. Box information, Intelligent Mail and Address Quality (IMAQ)
Delivery Statistics Summary for route information, and Retail Data Mart for earned peak modeled window staffing.
8
  Space Requirements Matrix for Non-Flat Sequencing System (FSS) offices.
9
  SBOC and Facilities Optimization program.


                                                           7
    Facility Optimization: Capital Metro Area                                           DA-AR-11-004



    our findings and conclusions based on our audit objective. We discussed our
    observations and conclusions with management officials on January 4, 2011, and
    included their comments where appropriate.

    We assessed the reliability of facility-related data by verifying the accuracy of
    computer-generated information through observations during facility tours and
    interviewing agency officials knowledgeable about the data. We determined that the
    data was sufficiently reliable for the purposes of this report.

    PRIOR AUDIT COVERAGE

    The following audit reports are relevant to the Postal Service’s facility infrastructure.

                      Report             Final Report        Monetary
 Report Title                                                                         Report Results
                     Number                  Date             Impact
Facility           DA-AR-10-008           8/25/2010         $157,963,990   The OIG identified 1.98 million SF of
Optimization:                                                              excess space. Management agreed
Northern New                                                               with recommendations but disagreed
Jersey District                                                            with the monetary impact.
Facility           DA-AR-10-009            8/25/2010         $23,517,019   The OIG identified 740,000 SF of
Optimization:                                                              excess space. Management agreed
Chicago                                                                    with recommendations but disagreed
District                                                                   with the monetary impact.
Facility           DA-AR-10-010            8/25/2010        $446,258,222   The OIG identified 2.4 million SF of
Optimization :                                                             excess space. Management agreed
New York                                                                   with the recommendations but
District                                                                   disagreed with the monetary impact.
Restructuring      GAO-09-937SP            7/28/2009           None        The Government Accountability Office
the U.S. Postal                                                            added the U.S. Postal Service’s
Service to                                                                 financial condition to the list of
Achieve                                                                    high-risk areas needing Congress’
Sustainable                                                                attention and the executive branch to
Financial                                                                  achieve broad-based transformation.
Viability                                                                  It recognized the need to reduce the
                                                                           facility infrastructure. There was no
                                                                           management response in the report.
Federal Real        GAO-09-801T            7/15/2009           None        Federal agencies have taken some
Property: An                                                               positive steps to address real property
Update on                                                                  issues but some of the core problems
High Risk                                                                  that led to the designation of this area
Issues                                                                     as high-risk continue to persist. There
                                                                           was no management response in the
                                                                           report.




                                                        8
    Facility Optimization: Capital Metro Area                                      DA-AR-11-004




                      Report             Final Report       Monetary
 Report Title                                                                     Report Results
                      Number                 Date            Impact
Network             GAO-09-674T           6/20/2009           None     The Postal Service will require action
Rightsizing                                                            in a number of areas, such as
Needed to                                                              rightsizing its retail and mail
Help Keep                                                              processing networks by consolidating
USPS                                                                   operations and closing unnecessary
Financially                                                            facilities. Management generally
Viable                                                                 agreed with the accuracy of the
                                                                       statements and provided technical
                                                                       comments, which were incorporated.




                                                        9
Facility Optimization: Capital Metro Area                                                      DA-AR-11-004




                                 APPENDIX B: DETAILED ANALYSIS

Excess Space is Significant in the Greensboro District

Based on facility space requirements 10, we calculated that the Greensboro District
maintains 1.175 million more SF than they need for current operational workload. As
depicted in Chart 1, excess space was at least 29 percent of the total interior square
footage.

                    Chart 1 – Area Interior and Excess Space Comparison




The breakdown of interior square footage and OIG-calculated excess for the 30
visited facilities in the Greensboro District is represented in Table 2. Main post
offices contributed 67 percent of the excess space, carrier annexes 9 percent, plants
10.6 percent, stations 7.9 percent, and the finance station 0.5 percent.

                         Table 2 – Excess Space by Facility Type Visited
                              Facility                                              OIG -              Interior
         Facility                         Percentage Percentage
                               Type                                               Calculated           Square
          Type                             of Count   of Excess
                              Count                                               Excess SF            Footage
     Main Post Office                17        53.0%       67.0%                      246,219             486,267
     Station                           5       16.0%        7.9%                       29,021             108,669
     Carrier Annex                     3         9.0%        9.0%                      32,531              85,384
     Branch                            2        6.0%        5.0%                       18,447              39,607
                                       11
     Plant                           4         13.0%       10.6%                       38,820           1,390,735
     Finance Station                   1        3.0%        0.5%                        1,800               4,800
     Total                           32         100%        100%                      366,838           2,115,462

10
   We used Postal Service criteria established in March of 2007 outlined in a letter issued by the senior vice president
of Operations. In support of this new criteria, the headquarters Facility Group, Planning and Approval designed
matrices to assist with the space requirements of planned facilities.
11
   The Rocky Mount P&DF and the Raleigh P&DC share facilities with main post offices, reducing the actual facility
visited count to 30. Table represents both plants and main post offices.


                                                          10
        Facility Optimization: Capital Metro Area                                DA-AR-11-004



        To highlight excess space in the Greensboro District, Illustration 1 depicts two facilities
        with excess interior space. The Lenior Main Post Office is Postal Service-owned and
        has delivery and retail operations along with vacant space in the facility. The Greenville
        Main Post Office is leased facility with delivery operations and significant vacant space
        on the workroom floor. According to our calculations, 77 percent of the sites visited
        contained excess space, ranging from 1,800 to 49,235 SF.

                                   Illustration 1 – Examples of Excess Space
Lenior Main Post Office                                 Greenville Main Post Office
114 Ridge St. NW, Lenior, NC                            300 W 2nd St.Greenville, NC
Interior Square Footage: 31,851                         Interior Square Footage: 20,902
OIG-Calculated Excess SF: 20,351                        OIG-Calculated Excess SF: 15,902




        Causes for Excess Interior Space

        The opportunity to optimize excess interior space exists because:

           Postal Service policy requires installation heads to report excess space, but does
            not provide the necessary guidance to accomplish this task effectively.

           Facility systems do not track metrics such as dates or space conditions to allow
            effective management of excess space.

        Guidance Can Be Improved

        A review of the facility database user guide shows it does not provide sufficient
        guidance for identifying excess space using the workload-driven space requirements.
        For example, the facility database space survey asks installation heads to objectively
        answer “Do you have any vacant space in your facility that is in leasable condition and
        has access that does not compromise the security of the operation?” without providing
        further guidance or referencing space standards. While we identified excess space at


                                                      11
Facility Optimization: Capital Metro Area                                          DA-AR-11-004



23 of the 30 Postal Service facilities we visited, only two locations answered “yes” to the
vacant leasable space survey question. Further, our interviews revealed that Operations
employees were unaware of the method used to identify excess space at their facilities.
As a result, we calculated more than 1.1 million SF of excess interior space in the
Greensboro District.

Facility Systems Do Not Allow for Effective Management of Excess Space

The Postal Service’s workload has declined, resulting in significant excess space.
However, the electronic systems that manage facility space do not collect or monitor
metrics such as length of time that space is underused or vacant and the condition of
excess space to prioritize disposal actions efficiently.

For comparison purposes, we benchmarked Postal Service facility practices against the
General Services Administration’s (GSA) realty management practices and found the
GSA “ages” its available space for tracking, monitoring, and decision-making. The
Postal Service is not able to age excess space because it does not collect dates on
entry.

The GSA’s Public Buildings Service also manages its leased portfolio by focusing on
four primary areas: reducing vacancy, managing lease administration expenses,
managing customer requirements, and analyzing market trends.12 Similarly,
GSA-owned facilities are monitored and analyzed using performance metrics such as
revenue, funds from operations, operating costs, vacancy, net operating income, and
return on equity. The Postal Service’s facility management systems are not able to
manage property in this way. For example, rents from leases or subleases are tracked
manually using electronic spreadsheets.

Additionally, because the Postal Service’s eFMS calculates space based on delivery
and retail metrics, the excess space reported for processing and distribution plants is
inaccurate. Therefore, eFMS is not reliable for identifying how much excess space is
available in postal plants. The Postal Service plans to measure plants and update its
facility database. To complete this task, industrial engineers, working with local in-plant
support, use blueprints to identify processing equipment, staging areas, and manual
work areas as well as to identify excess space.

We estimate that if the Capital Metro Area initiated disposal actions in the Greensboro
District it could realize $36,312,795 over typical and remaining lease terms. We
consider this amount funds that could be used more efficiently by implementing
recommended actions or $3,631,280 annually. See Appendix C for the monetary impact
calculation and assumptions.




12
     State of the Portfolio FY 2008 at: http://www.gsa.gov/portal/category/22180


                                                            12
      Facility Optimization: Capital Metro Area                                                  DA-AR-11-004



      Opportunity to Fulfill Federal Space Needs

      The GSA is the nation's largest public real estate organization. It provides workspace for
      more than 1 million federal workers through its Public Buildings Service. According to
      the Code of Federal Regulations (CFR), when GSA-controlled space is not available,
      federal agencies must extend priority consideration to available space in Postal Service
      buildings.13

      Our audit noted that Postal Service could more aggressively seek federal entities to fill
      excess space. Table 3 shows that GSA leases on behalf of federal entities primarily
      from the commercial sector rather than the Postal Service. Space requirements were
      greater than the excess space identified in Postal Service facilities. The GSA paid
      considerably more per square foot than the value assigned to Postal Service space.14

      Table 3 – Postal Service Excess Space Lease Opportunity – Greensboro District
                                                                       Existing                    Postal
                                                                                                               Number of GSA
                                Postal                   Postal         GSA/           GSA        Service
                GSA                            GSA                                                             Leases Excess
 District                      Service15                 Service        Postal        Average     Average
              Leased SF                        Count                                                             Space May
                              Excess SF                   Count        Service        SF Cost       SF
                                                                                                               Accommodate
                                                                       Leases                      Value
                                                                                                                 79 of
Greensboro     1,447,304           724,453        121         242                 3     $20.72       $8.40                65%
                                                                                                                  121

      Table 3 and Appendix D also illustrate the strong correlation between space leased by
      the GSA and the ability of the Postal Service to significantly accommodate federal
      space needs. For the districts reviewed, we estimate that Postal Service excess space
      may accommodate 79 of 121 (or 65 percent) of current federal leases. However, we
      understand that more information is needed to determine whether the Postal Service’s
      excess space would be suitable.




      13
         41 CFR 102-73.20.
      14
         Postal Service excess space was assigned a value based on historical lease rates in the same geographic areas.
      15
         This figure excludes the node study credit of 59,985 SF accorded to the district.


                                                              13
Facility Optimization: Capital Metro Area                                                                                                                         DA-AR-11-004

                                                         APPENDIX C: MONETARY FUNDS PUT TO BETTER USE

Project year                                    0                  1             2             3              4               5             6             7            8           9 
Fiscal year                                     2011               2012          2013          2014           2015            2016          2017          2018         2019         2020 
Owned**                                                                                                                                                              
Sublease Value                                  ($3,175,140)  $3,961,369  $3,961,369    $3,961,369    $3,961,369  $3,961,369    $3,961,369  $3,961,369    $990,342                           
Utility Savings                                                 $863,374    $883,231     $903,546      $924,327     $945,587     $967,335     $989,584    $253,086                           
Custodial Savings                                               $934,142    $934,142     $934,142      $934,142     $934,142     $934,142     $934,142    $233,536                           
Leases Expiring FY 2011***                                                                                                                                                                   
Sublease Value                                       ($659,971)     $823,393      $823,393        $823,393       $823,393      $823,393                                                      
Utility Savings                                                     $179,457      $183,585        $187,807       $192,127      $196,546                                                      
Custodial Savings                                                   $194,167      $194,167        $194,167       $194,167      $194,167                                                      
                                                                                                                                                                                             
Leases Expiring After FY 2011*** 
Sublease Value                              ($1,040,458)           $1,298,096     $784,164       $544,613       $302,022       $220,290       $280,770    $251,634    $172,716  $151,724 
Utility Savings                                                     $282,918      $174,838       $124,220         $70,472        $52,584        $68,562     $62,860     $44,138  $39,666 
Custodial Savings                                                   $305,808      $184,617       $128,270         $71,208        $51,935        $66,197     $59,326     $40,716  $35,779 
Subtotals                     $49,244,420   ($4,875,569)           $8,842,724    $8,123,506     $7,801,526     $7,473,227     $7,380,012     $6,278,375  $6,258,916  $1,734,534  $227,169 
Cash Flows @ Sub Lease Efficiency Rate      ($4,227,118)           $7,666,642    $7,043,080     $6,763,923     $6,479,287     $6,398,470     $5,443,351  $5,426,480  $1,503,841  $196,955 
Discounted at Postal          $41,883,270  ($4,875,569)            $8,512,851    $7,528,725     $6,960,597     $6,418,950     $6,102,417     $4,997,825  $4,796,471  $1,279,660  $161,343 
Service cost of 
borrowing 
NPV                            $36,312,795                                                                                                                                                   
         Build‐out cost/sq ft         $6.73                     Custodial rate/sq ft   $1.98                               Assumptions
         Lease savings/sq ft/yr      $8.40              Postal Service  cost of borrowing     3.875%          **Weighted Average Lease years = 7.3
 Utilities savings/sq ft/yr, FY 2010        $1.83           Sub‐lease efficiency rate      86.7%        ***Will be renewed at minimum lease term (5 years)
                                                                 Utility cost escalation rate   2.30%




                                                                                                 14
Facility Optimization: Capital Metro Area                                                     DA-AR-11-004



Value Assigned to the Excess Space

Table 4 shows the value per square foot for each district. Using the Facility Inventory
Reports from the eFMS, we calculated this figure by dividing total interior square
footage by total lease costs.

Utility Costs Associated with the Excess Space

Table 4 shows the utility cost per square foot for each district. Using the information
from line 42 of the Financial Performance Report (FPR), we calculated this figure by
dividing the total annual utility expenses for FY 2009 by the district’s total interior square
footage, with a cost escalation rate of 2.3 percent.

Maintenance Costs Associated with the Excess Space

Table 4 shows the maintenance cost per square foot for each district. We calculated this
cost by dividing the total annual maintenance expenses16 (FY 2009) by the district’s
total interior square footage. However, we reduced the cost by 50 percent, based on
previously identified savings in a custodial maintenance audit.17

Build-Out Costs Associated with Implementing Optimization Actions

Table 4 shows the build-out cost per square foot for the Greensboro District. We
calculated this figure by dividing the “build-out/Line 63 capital” costs for all approved
optimization node studies in each district by the total reduction in square footage
identified in the approved node studies.

For the Greensboro District, we calculated the average build-out cost based on the
district’s build-out cost per square foot according to five node studies conducted for the
Greensboro District. We calculated the build-out cost for the entire Greensboro District
as $6.73 per square foot.

                Table 4 – Square Footage Costs Greensboro District
                              Lease    Utility  Maintenance     Build out
                District
                             Cost/SF Cost/SF      Cost/SF       Cost/SF18
              Greensboro      $8.40    $1.83       $1.98           $6.73




16
    eFlash (Labor Distribution Code 38, salary and benefits) + FPR Line 3F Contract Cleaners Costs.
17
    Custodial Maintenance (Report Number DA-AR-09-011, dated August 13, 2009).
18.
    While build-out costs are negotiable and at times paid for by the lessor, these costs ranged from $4.80 per square
foot to $8.14 per square foot in the node studies analyzed.



                                                          15
Facility Optimization: Capital Metro Area                             DA-AR-11-004



Ownership of Facility and Term Years

We categorized all facilities in the district by ownership – leased versus Postal
Service-owned. We further grouped the leased properties by the number of term years
remaining on the lease.

We calculated leases expiring before the end of FY 2011 based on the assumption that
these leases would be renewed for the standard 5-year period. We calculated leases
expiring after October 1, 2011, for the remaining lease term. We also calculated Postal
Service-owned facilities over a period of 7.3 years, which was the historical national
average lease term.

Sublease Efficiency Rate

We identified the national commercial property vacancy rate from the National Realty
Association for industrial and retail space as 13.3, so we reduced the net present value
savings realization to an 86.7 percent “success rate.”




                                            16
Facility Optimization: Capital Metro Area                            DA-AR-11-004




               APPENDIX D: GSA-LEASED PROPERTIES COMPARED TO
                        POSTAL SERVICE EXCESS SPACE




The pie chart illustrates the ratio of Postal Service excess space to GSA-leased
commercial space. The table below provides additional analysis by placing the real
estate into size categories to further assess supply versus demand.

                                                                    GSA           OIG
                                                      Building
                                                                   Leased      Identified
                                                       Size
                                                                  Facilities    Excess
                                                       1,000              10          104
                                                       5,000              30           97
                                                       10,000             43           19
                                                       20,000             19           11
                                                       30,000              7                5
                                                       40,000              4                1
                                                       50,000              3                3
                                                       More                5                0
                                                    Total Count         121           240




                                            17
Facility Optimization: Capital Metro Area                    DA-AR-11-004



                         APPENDIX E: MANAGEMENT’S COMMENTS




                                            18
Facility Optimization: Capital Metro Area        DA-AR-11-004




                                            19
Facility Optimization: Capital Metro Area        DA-AR-11-004




                                            20
Facility Optimization: Capital Metro Area        DA-AR-11-004




                                            21
Facility Optimization: Capital Metro Area        DA-AR-11-004




                                            22
